TN

@OCKLE

. E-Mail Address:
Le 8 al Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1081
ARLENE ROSENBLATT,
Petitioner,
Vv.
THE CITY OF SANTA MONICA ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 6269 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL NOTARY-State of Mabraska
RENEE J. QOSS
My Comm. Exp. September 8, 2023

Leoo Ovdrav-h, Gale

Affiant

    

 

   

Notary Public
